<html>
<title> - PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY FLAWED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY 
                                FLAWED? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 20, 2007

                               __________

                           Serial No. 110-130

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-998 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director





























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 20, 2007................................     1
Statement of:
    Daschle, Thomas A., former Senate Majority and Minority 
      Leader; Thomas E. Garrett, regional program director, 
      Middle East and North Africa for the International 
      Republican Institute [IRI]; and Mark L. Schneider, senior 
      vice president of the International Crisis Group [ICG] and 
      former Peace Corps director................................     8
        Daschle, Thomas A........................................     8
        Garrett, Thomas E........................................    30
        Schneider, Mark L........................................    38
Letters, statements, etc., submitted for the record by:
    Daschle, Thomas A., former Senate Majority and Minority 
      Leader, prepared statement of..............................    10
    Garrett, Thomas E., regional program director, Middle East 
      and North Africa for the International Republican Institute 
      [IRI], prepared statement of...............................    33
    Schneider, Mark L., senior vice president of the 
      International Crisis Group [ICG] and former Peace Corps 
      director, prepared statement of............................    43
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


   PAKISTANI ELECTIONS: WILL THEY BE FREE AND FAIR OR FUNDAMENTALLY 
                                FLAWED?

                              ----------                              


                      THURSDAY, DECEMBER 20, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Yarmuth, and Van Hollen.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Andy Wright, professional staff member; A. Brooke 
Bennett, minority counsel; Christopher Bright, minority 
professional staff member; Todd Greenwood, minority legislative 
assistant; and Nick Palarino, minority senior investigator and 
policy advisor.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs hearing 
entitled, ``Pakistani Elections: Will They Be Free and Fair or 
Fundamentally Flawed,'' will come to order.
    I ask unanimous consent that the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Mr. Yarmuth, we're happy to have an opening 
statement from you as well, when it comes to that, if you'd 
like. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, so ordered.
    I want to thank our witnesses for coming here today and 
assisting us in this hearing. We're going to continue our 
sustained oversight of U.S. policy toward Pakistan.
    Here in the States, we're well into our longest-ever 
Presidential campaign; and the future course of U.S. national 
security is at front and center as an issue. On January 8th, as 
New Hampshire voters brave the cold to vote in the first of the 
Nation's primary, another election that very same day, a 
parliamentary election halfway around the world in Pakistan, 
will also have a profound effect and consequences on U.S. 
national security.
    We've noted at previous hearings that Pakistan is at a 
crossroads. After a year of extremist violence spreading 
throughout its western regions and ambivalent military response 
and increasing pressure from pro-democracy groups, President 
Musharraf declared a state of emergency on November 3rd.
    Pakistan's emerging civil society appeared to be the main 
target. President Musharraf sacked judges who refused to 
surrender their independence. He jailed lawyers, human rights 
advocates and political opposition leaders. He banned public 
political gatherings. He muzzled the nation's independent 
media; and, worst of all, he turned Pakistan's guns on its 
civil society instead of on the Taliban and al Qaeda.
    The Bush administration initially made some gestures to 
pressure President Musharraf to reverse course. Ambassador Ann 
Patterson, for example, made very important and visible efforts 
to highlight the detention of lawyers and the crackdown on 
independent media. However, the administration, especially 
recently, has appeared to undermine the pro-democracy message.
    Deputy Secretary of State John Negroponte and Richard 
Boucher continue to refer to Musharraf as an ``indispensable'' 
ally. President Bush said that President Musharraf ``hadn't 
crossed any lines'' by imposing the state of emergency. Just 2 
weeks ago, Ambassador Boucher referred to the state of 
emergency as ``a bump in the road.''
    I'm concerned that such statements greatly undermine U.S. 
credibility with the Pakistani people. We should never forget 
that the Pakistani people are indispensable and our long-term 
ally, not necessarily one leader, whether it be President 
Musharraf or anyone else.
    Over the last several weeks, there have been some positive 
developments. President Musharraf resigned as Army Chief; the 
leaders of the two mainstream opposition parties, Benazir 
Bhutto and Nawaz Sharif, are now back in Pakistan; and 
President Musharraf revoked the state of emergency just this 
past weekend.
    Still, much of the damage remains. Judges have not been 
reinstated, media outlets now operate under a code of conduct 
restricting criticism of the government, leading opposition 
lawyers remain under arrest, the election commission lacks 
independence, the voter rolls continue to inspire little 
confidence, and evidence mounts that raises serious concerns 
about President Musharraf using the power of the state to gain 
unfair advantage in the elections.
    For example, this is a photograph--shown on the screen over 
there--that was taken last week depicting an armed Pakistani 
security official actually posting signs on behalf of President 
Musharraf's political party, the PML-Q.
    There is also evidence that the crackdown against civil 
society continues, notwithstanding formal revocation of the 
state of emergency. This picture on the screen is of security 
forces beating a woman at a peaceful protest taken just a few 
days ago. We note that this confrontation happened after the 
state of emergency was purportedly lifted.
    Taking all of this into account, there are grave concerns 
and many questions about the prospects for free and fair 
parliamentary elections less than 3 short weeks from now on 
January 8th.
    How will the code of conduct imposed on the media allow the 
kind of unbiased political expression necessary for a free and 
fair election?
    How much of a chilling effect will there be on a robust 
political opposition when activists continue to fear crackdowns 
and arrests?
    How accurate are the voter rolls going into this election 
and what effect will Nawaz Sharif's ineligibility to stand for 
election have?
    How will political parties campaign in the western regions 
of the country that have been inflamed by Taliban and al Qaeda 
violence?
    How will the removal of judges unwilling to go along with 
President Musharraf and the lack of an independent election 
commission hamper the ability to ward off and root out 
corruption and unfair practices at the polls?
    We also think it merits taking a few minutes now before the 
heat of the election day itself to discuss the following:
    First, what standards must be met for an election to be 
deemed free and fair? What is the dividing line between minor 
problems and massive election fraud?
    Second, how should the United States react if the 
international community and credible election observers deem it 
to be a fundamentally flawed election?
    I look forward to engaging with our distinguished panel 
that is before us today about these particular questions. I 
want to thank all of you for sharing your expertise with the 
Congress and with the American people. In particular, I look 
forward to hearing your experiences, since you have closely 
monitored the buildup to these Pakistani parliamentary 
elections with business there in the not-too-distant past. So 
thank you.
    And, Mr. Yarmuth, if you have some comments, we'd love to 
here those as well.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yarmuth. Thank you, Mr. Chairman. I really don't have 
too much.
    I want to thank you for and commend you for holding this 
hearing. It is a very important topic, and I'm particularly 
interested in an assessment of just what the risks and the 
possibilities are from U.S. relationships in Pakistan. Because 
I've seen in a number of cases throughout many years that there 
are usually a lot of unintended consequences from our 
involvement, our relationships within a country in terms of the 
results of elections and the perception of the United States as 
a result of that. So I'm very interested in the witnesses' 
testimony and the discussion that we'll have.
    Thank you very much.
    Mr. Tierney. Thank you, Mr. Yarmuth.
    The subcommittee will now receive testimony from the 
witnesses that are here with us today. I want to begin by 
introducing each of the witnesses on the panel.
    We have, starting from my left, Senator Thomas A. Daschle, 
who is a former two-time Senate majority and minority leader in 
the Senate. Senator Daschle recently co-authored a pre-election 
assessment report after he had led a team to Pakistan on behalf 
of the National Democratic Institute.
    Mr. Thomas E. Garrett is the regional program director for 
the Middle East and North Africa for the International 
Republican Institute. The IRI was awarded the election observer 
grant on behalf of the U.S. Government and released a survey of 
the Pakistan public opinion just last week.
    Mr. Mark L. Schneider is a senior vice president of the 
International Crisis Group and a former U.S. Peace Corps 
Director. The ICG closely monitors events on the ground in 
Pakistan and has employees stationed there to assist in that 
project as well.
    Welcome to all of you and thank you again.
    It is the policy of the subcommittee to swear in our 
witnesses before we take testimony, so I please ask you to 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all 
witnesses answered in the affirmative.
    You have full written statements that you have been kind 
enough to supply to the committee, and those will be put on the 
record with unanimous consent. We ask that you keep your oral 
statements somewhere within the 5-minute range. So we have a 
small panel here today, so we're more than happy to let you go 
a little bit beyond that, And we do want to hear a full 
assessment of your thoughts and your observations.
    Senator Daschle, we will be pleased to start with you.

  STATEMENTS OF THOMAS A. DASCHLE, FORMER SENATE MAJORITY AND 
MINORITY LEADER; THOMAS E. GARRETT, REGIONAL PROGRAM DIRECTOR, 
 MIDDLE EAST AND NORTH AFRICA FOR THE INTERNATIONAL REPUBLICAN 
 INSTITUTE [IRI]; AND MARK L. SCHNEIDER, SENIOR VICE PRESIDENT 
OF THE INTERNATIONAL CRISIS GROUP [ICG] AND FORMER PEACE CORPS 
                            DIRECTOR

                 STATEMENT OF THOMAS A. DASCHLE

    Mr. Daschle. I appreciate the opportunity to be here with 
you today. I commend you on your opening statement, Mr. 
Chairman; and I'm very pleased to be a part of the 
distinguished panel that is appearing before you today.
    I come before you on behalf of the National Democratic 
Institute regarding the prospects for free and fair elections 
in Pakistan. I'm a member of the Board of Directors of NDI and, 
as you noted, was pleased to be able to lead a pre-election 
assessment of Pakistan for NDI from October 17th-21st.
    NDI has been actively involved in supporting the electoral 
process in Pakistan now for nearly two decades. The Institute 
organized the international delegations to observe the national 
and provincial elections in 1988, 1990, 1993, and 1997. This 
year, NDI is implementing a program to train political party 
representatives to monitor polling stations across the country 
on election day.
    The Institute also conducted two pre-election assessment 
missions to Pakistan, both prior to the imposition of marshal 
law. The first was held in May, and I led the second held in 
October. These missions identified a number of critical issues 
that needed to be addressed by the Pakistani government to 
improve the inclusiveness and credibility of the polls.
    The most recent delegation identified the following 
critical issues affecting these elections: first, the high 
incidence of election-related violence, second, the killing and 
abduction of journalists and political party workers; third, 
the infringement of the rights of women to vote; fourth, the 
ban on political parties operating in the federally 
administered tribal areas. Next, the lack of regular 
consultation by the election commission with the political 
parties and civil society on election procedures and policies 
and the inaccuracy of the voters list.
    President Musharraf's recent retirement from his military 
post and the lifting of the state of emergency on Saturday have 
been welcome developments, but much remains to be done before 
the upcoming polls could be viewed as free and fair by any 
international standard. In fact, we urge the members of this 
committee not to be distracted by President Musharraf taking 
off his uniform. It has not undone the damage of 8 years of 
military rule to the basic institutions of rule of law and 
democracy in Pakistan.
    Similarly, the lifting of the state of emergency is not 
alone sufficient for ensuring free and fair elections. It is 
only the first of many steps the government must take to avoid 
a further deepening of the Pakistan crisis today.
    Among the serious impacts of the recent state of emergency 
was the severe erosion of the independence of Pakistan's 
judiciary. Musharraf's replacement of several Supreme Court 
justices who threatened to rule his re-election 
unconstitutional undermines the democratic principle of checks 
and balances. Without the restoration of Chief Justice Iftikhar 
Chaudhry and the other deposed judges, public confidence in the 
ability of the judicial system to act independently and to 
ensure the transparence of the electoral process will be 
significantly curtailed.
    Lingering restrictions on the press and opposition 
political parties also pose a threat to free and fair 
elections. Vibrant independent media and political competition 
are important elements in free society. While many restrictions 
imposed during the state of emergency have been lifted, one 
major television station continues to be prohibited from 
broadcasting, while others face strict limitations on the 
content of their political coverage. Many opposition supporters 
remain under arrest while their parties do not have the freedom 
to campaign openly.
    In addition, both of NDI's assessments identified a host of 
very serious and basic issues that, if not addressed, would 
adversely affect the election. Virtually none has been done 
since our first report to strengthen the prospects for free and 
fair elections. While the government has allowed the return of 
two former prime ministers, Benazir Bhutto and Nawaz Sharif, 
after years of exile, Sharif has been barred from standing for 
a seat in parliament, thus diminishing his party's ability to 
fully participate in these elections. The other issues 
identified by the NDI delegations, which remain unaddressed 
today, are still fundamental to an inclusive, credible and 
transparent electoral process.
    Only elections that are viewed as legitimate by the people 
of Pakistan can resolve the instability that has long plagued 
their country. Robust institutions, an independent judiciary, 
free and independent media, vibrant political parties and 
transparent elections are all fundamental to a stable and 
democratic future for Pakistan.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Senator.
    [The prepared statement of Mr. Daschle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Mr. Garrett.

                 STATEMENT OF THOMAS E. GARRETT

    Mr. Garrett. Thank you, Mr. Chairman and Mr. Yarmuth, for 
this opportunity to appear before you today to discuss the 
upcoming elections in Pakistan.
    The International Republican Institute is actively engaged 
in programs to support the democratic process in Pakistan, 
ranging from public opinion polling to work with 
nongovernmental organizations to a political party 
strengthening program. These activities have been funded 
through the National Endowment for Democracy.
    As you mentioned, with recent funding from the U.S. State 
Department's Bureau of Democracy, Human Rights and Labor, as 
well as the U.S. Agency for International Development, IRI has 
also undertaken a comprehensive elections effort that includes 
a pre-election assessment, deployment of long-term observers 
across the country and fielding of a 65-person international 
election day observer team. I mention the polling as a specific 
activity that IRI conducts in Pakistan.
    Our public opinion research has revealed that Pakistanis 
are committed to democracy and concerned about the future 
direction of their country. In IRI's February 2007, poll, 81 
percent were optimistic that democracy would improve their 
lives. Over the course of the past year, increasing numbers 
have expressed their desire for the army to remove itself from 
civilian government and for President Musharraf to resign his 
post as army chief of staff. Even when President Musharraf was 
at the peak of his popularity in IRI polling, strong majorities 
supported the return of exiled leaders Benazir Bhutto and Nawaz 
Sharif in order to contest elections.
    Our most recent poll, conducted just this past month, found 
that voters overwhelmingly opposed the President's declaration 
of emergency. Voters were also opposed in large numbers to the 
various measures that accompanied this state of emergency 
declaration. For instance, 71 percent opposed the suspension of 
the constitution, 76 percent of Pakistanis opposed the closure 
of TV news channels, 76 percent opposed the crackdown on 
lawyers, and 62 percent supported the demonstrations you saw on 
the street against the declaration.
    On the day before President Musharraf declared the state of 
emergency, IRI had a pre-election assessment team concluding 
its 8-day visit to the country. While there, we met with 12 
political parties, representatives of the election commission, 
civil society and media as we traveled throughout the country 
visiting Islamabad, Quetta, Karachi, Lahore. What we found in 
this pre-election assessment was a strong commitment on the 
part of civil society and political parties to engage in the 
democratic process, even among those who identified as early as 
November/October a lack of a level playing field in the pre-
election environment.
    One of the overriding concerns expressed to our pre-
election assessment team was the continued decline of law and 
order within Pakistan. People who intended to stand for 
candidate--excuse me--stand for office expressed fears about 
their personal safety while electioneering. The media told us 
they were worried about the vulnerability of their reporters 
and camera people as they tried to carry out their work to 
bring information to the public. But even these concerns of 
election period instability did not result in the majority of 
Pakistanis we spoke to from saying that they agreed with the 
governmental band to limit rallies or to stop political 
gatherings.
    Questions as to the capacity of the election commission of 
Pakistan to meet electoral needs in a timely fashion were often 
raised with IRI's delegation. One consistent issue of concern 
was the accuracy of the official voter list and the possible 
exclusion of eligible voters on election day.
    Our election assessment also noted the important role 
played by Pakistan's nonstate media. If you look back to 1999, 
the year during which General Musharraf took power in Pakistan, 
you can see the limited number of private media that existed at 
the time. During these last several years, media outlet numbers 
have grown tremendously and today they play a very important 
role in the roadmap to democracy in Pakistan.
    In IRI's most recent polling, the media actually outstrips 
institutions such as the judiciary and the army as the highest-
rated institution in the country. That makes it all the more 
important, we believe, that private television stations that 
have been removed from the air--some restored but also still 
have media curbs in place against them--be allowed to report 
freely and fully on this election campaign period.
    The declaration of emergency on November 3rd was a very 
significant obstacle to the restoration of democracy in 
Pakistan. Several individuals that IRI met with during that 
time were under detention or still face the threat of detention 
today.
    The government of Pakistan's decision to lift the emergency 
and proceed with elections offers some hope the process toward 
democratization may be restored. However, I have to say it is 
very difficult to envision how elections conducted in a matter 
of only a few days and weeks under these kinds of rules while 
many participants are otherwise still detained or face the 
threat of detention--it is very difficult to envision how these 
elections can achieve legitimacy in the minds of the Pakistani 
citizenry. Of course, it is the Pakistani citizens who will 
judge this election's credibility. Based upon the polling 
figures that we have seen, we think this will be very difficult 
to achieve.
    Within IRI, we've examined whether or not our presence as 
observers on this election January 8th is necessary or 
desirable, given the flawed conditions in which we see this 
election proceeding. As recently as last week while I was in 
Pakistan, we met in consultation with our Pakistani partners 
and others as to the viability of an observer mission. But with 
the decision of the majority of parties to contest the 
election, IRI determined that its role as an NGO that promotes 
democracy was to work with our Pakistani partners on this 
election in the hope that future elections can be improved to 
democratic standards.
    So, over the next few weeks, our long-term and short-term 
observer delegation will be arriving in Pakistan to observe the 
electoral process. We will attempt to put people, observers in 
all four provinces of Pakistan, depending upon security at the 
time.
    Our preliminary mission findings will be presented shortly 
after election day at a press briefing, and within 45 days 
we'll issue a comprehensive report. It is our hope that the 
recommendations that report contains will strengthen the future 
elections in Pakistan. We hope that these recommendations will 
set benchmarks that serve as a guide for Pakistani election 
officials, political parties and civil society on how future 
elections may improve the country's democratic standing.
    Just before I close, let me say that much of my comments 
were geared toward the role of the government in this election. 
As a result of our pre-election assessment, I'd also like to 
point to the role played by political parties in Pakistan, 
including those in the opposition. We think that a commitment 
by the parties to run issue-based rather than personality 
centered election campaigns would break with the disastrous 
cycle of elections that have taken place in Pakistan since 
1970. We think it is an important role for the parties to come 
forward with political programs or platforms that motivate the 
people of Pakistan to participate in elections.
    If you look at our polling, the issues which predominate 
are not those concerned with foreign policy or the war on 
terror. But, for Pakistanis, it is bread and butter issues such 
as inflation. When presented with a number of issues and asked 
to select what was most important in determining which party 
they'd vote for, 77 percent of Pakistanis chose economics 
related issues. Inflation was the top issue by far, having been 
selected by 53 percent of the respondents.
    Just finally, in closing, let me say that restoring public 
as well as international confidence in the electoral process in 
Pakistan is going to be very, very difficult. But we can see 
again through 2 years of polling that the urge among Pakistanis 
for democracy remains strong.
    Thank you very much.
    Mr. Tierney. Thank you, Mr. Garrett.
    [The prepared statement of Mr. Garrett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Mr. Schneider.

                 STATEMENT OF MARK L. SCHNEIDER

    Mr. Schneider. Thank you, Mr. Chairman.
    Let me again express our appreciation to you and to the 
subcommittee for maintaining this focus on U.S. relations with 
Pakistan and on the Musharraf government's performance on 
democracy, extremism and terrorism.
    This hearing asks whether the parliamentary elections now 
scheduled for January 8th are going to be fair and free or 
fundamentally flawed, and it is appropriate that the question 
is asked now because election day is too late.
    And, unfortunately, the answer today is that Pakistan's 
parliamentary elections will be fatally flawed unless 
fundamental, political, electoral and legal conditions are 
rapidly improved. Today, those conditions do not permit a fair 
and free election. It is December 20th. Martial law was lifted 
only 5 days ago. The elections will take place in 18 days. 
There is a very short time.
    There is nothing like time for a long-term observation. 
That was long ago that the observation should have begun, and 
there should have already been a finding that the conditions 
that are required do not exist.
    Election day, remember, is the final act of a democratic 
drama.
    The first act is establishment of neutral rules and 
standards that all of the major players agree will permit a 
level playing field. That does not exist.
    Act two is for all of the parties to be able to name their 
own candidates and then to be able to campaign freely and the 
press to be able to ask their questions of all parties. That 
again does not exist.
    It is only finally when you get to the final act, if you 
will, when all eligible voters are permitted to vote, when 
votes are honestly and accurately counted and reported and when 
the complaints are heard before a neutral body, then one can 
say that the full drama is complete. At the moment, all of 
those factors are in high question as to whether or not those 
conditions will be met, because the emergency government of 
General Musharraf and now the current post-December 15th 
government of President Musharraf have violated the country's 
constitution and undermined the essential conditions for a fair 
and free election.
    As you noted, I was in Pakistan the week before the 
emergency was declared. At the beginning of the week, the 
assumption was that there would be no emergency because people 
did not think the court would dare to rule against Musharraf on 
the two key constitutional challenges to his re-election, 
wearing the uniform at the same time as being president and 
attempting to be re-elected within 2 years of holding an office 
as a military officer.
    By the end of the week, the views had changed; and that 
really gives you an indication of the timing for his action to 
declare an emergency. By the end of the week, in fact, it was 
viewed that the Supreme Court would disqualify him on one or 
both of the constitutional grounds; and, in addition, his 
government faced contempt charges for having refused to abide 
by the court decision to permit Nawaz Sharif to return to 
Pakistan from Saudi Arabia and forcibly deported him.
    He essentially preempted the court on November 3rd. He 
imposed an emergency rule, he voided the constitution, he 
essentially adopted martial law. And there is a key disconnect 
between his justification of terrorism, the threat of 
terrorism, and his actions. The first people arrested were not 
terrorists. They were political party leaders. The first people 
released from prison were terrorists, in fact, those that had 
been linked to suicide bombings. They were exchanged for army 
hostages. Of the dozen or so paragraphs in the proclamation of 
emergency, 2 were solely linked to terrorism, 10 complained 
about an independent judiciary.
    His actions in time revealed his fundamental motive, which 
was to maintain power. The reason for acting was to retain 
political power and not to fight terrorism, and martial law was 
the means.
    To be frank, everybody in Pakistan I think was surprised by 
the level of repression that followed that decision. You've 
already heard some of it: Thousands rounded up and detained, 
Supreme Court justices, other justices removed. Remember, 13 of 
the 17 Supreme Court justices essentially were detained and 
have been fired; and more than 40 of the provincial High 
Courts, essentially the state Supreme Courts, have also been 
fired.
    The independent judiciary has been undermined, 
fundamentally; and I'm going to get to the point, which is that 
the linkage between the judiciary and fair and free elections 
in Pakistan is fundamental.
    Now, you have to understand that the reason that he did not 
use the emergency provision of the constitution and apply that 
as President, which I put into the testimony, is that would not 
have voided the roles of the other agencies of government. It 
would have kept the Supreme Court which had the power under the 
constitution to review his actions. He didn't do that. He 
voided the constitution. He essentially took the country back 
to 1999 and worse. Because what he said was that there will be 
no review of my action by the court or any other institution.
    In fact, now when he lifted the emergency last Saturday, he 
acknowledged what he had done. He said--and I'm quoting--have I 
done anything constitutionally illegal? Yes, I did on November 
3rd. His order deprived the courts of the authority to 
challenge any Executive order for unconstitutionality and gave 
him the power to amend the constitution.
    Before they were placed under confinement, 7 members of the 
Supreme Court, a majority of the panel of 11, ruled that his 
actions were illegal and unconstitutional.
    And then you asked the question about the reaction in 
Pakistan to what has occurred and to U.S. actions. Pakistanis 
and others found it utterly incomprehensible that President 
Bush asserted that Musharraf had not crossed any red line in 
terms of undemocratic actions.
    This is the second time he crossed the red line. The first 
time was 1999, and the second time was when he voided the 
constitution on November 3rd.
    Now, afterwards, I think the United States, the U.K. and 
the EU made appropriate statements expressing the view that the 
emergency rule was unwise and the martial law abuses are 
unacceptable; and it essentially said that he needed to give up 
his army post, hold fair and free elections and end the 
emergency rule. But it is interesting that the U.S. Government 
at all levels has been utterly silent about the importance of 
an independent judiciary, it has been utterly silent about the 
need to restore the court and to restore the judges who have 
been fired, and that is a tragedy.
    Now, to the casual observer, it may appear that Musharraf 
has met those three conditions. He gave up the army post 
November 28th, he announced the parliamentary elections would 
be held, and he issued the order Saturday ending the emergency. 
Unfortunately, he did so with caveats, with restrictions and 
with limitations which violate fundamental freedoms and which 
make fair and free elections highly dubious.
    The day before he lifted the emergency, he imposed six new 
constitutional amendments, again which challenged the role of 
the judiciary; and his orders simply said that nothing that had 
occurred during the emergency period could be reviewed by the 
courts or by parliament.
    And, by the way, some of those items--it is important to 
recognize what they were.
    First, of course, it said that the 2-year bar would no 
longer apply to the President. Second, that the dismissal of 
the Supreme Court judges and High Court judges can't be 
challenged by or before any court. An amendment to the 1952 
Army Act made retroactive from its military courts now to try 
civilians for a wide range of offenses, including causing 
public mischief. Another decree threatens freedom of 
association by giving the new hand-picked High Court the 
authority to disbar lawyers. And, again, none of these decrees 
are subject to review under his order.
    The linkage between the judiciary and elections. The 
election commission of Pakistan is comprised of a retired 
Supreme Court justice and a serving High Court judge from each 
of the four provinces. Two of those remain unfilled. By 
permanently barring the previous Supreme Court provincial High 
Court judges who refuse to bow to his edict, he has basically 
assured that the commission represents only hand-picked judges 
that he is satisfied with.
    But it is even more than that. In every province, above the 
polling station, when the returns are collated, if you will, at 
a district level--let's say first at a municipal level and here 
let's say at a county level--there are what are called district 
returning officers, returning officers and assistant returning 
officers who run that. They manage it. In Pakistan, they are 
either district judges, assistant district judges or civil 
judges; and they all have to respond to the high--to the High 
Court of that province. And so the judiciary in Pakistan 
fundamentally is responsible for running the elections. That 
judiciary has now been totally tarnished by Musharraf's 
actions.
    And, in addition, it should be remembered that whenever 
there are complaints made, those complaints go to an electoral 
tribunal made up of judges and then from there to the High 
Court in each province and then to the Supreme Court, again, 
courts which now are filled with hand-picked Musharraf choices. 
By stacking the full range of High Courts, including, by the 
way, now naming a totally new High Court for Islamabad, he has 
essentially hijacked the electoral process.
    In terms of ensuring credible elections, could it still be 
done? Possibly. But you'd have to do a range of actions:
    One, establish a neutral caretaker government that doesn't 
exist. He has refused to do so.
    Establish a neutral and accepted electoral commission. 
Tomorrow, he could go and ask the parties for recommendations, 
and there are scores of acceptable individuals if he would 
restore the judges who could form that commission.
    The voters' rolls. You've heard just mention of them. But 
what occurred was that the commission established new voters' 
rolls for this election. By August, they had come up with 52 
million names. There was a protest from the parties, because, 
in 2002, there were 72 million names, and it was clear that 
something was wrong. And it went to the Supreme Court and the 
Supreme Court said to the electoral commission, fix this.
    What the electoral commission did was say, OK, here is the 
2002 list. Here is the list we came up with. Those who aren't 
on our list that were in 2002 we'll add. They added about 25 
million names. Nobody reviewed who died. Nobody reviewed who 
wasn't on--shouldn't have been on that list because they 
perhaps were terrorists and in jail. Nothing.
    The parties said, put this on a mechanism where we can 
electronically go through it and try and say these people are 
dead, these people on our party lists are not on it. And when 
we were--when I was in Islamabad, I spoke to the electoral 
commission; and they said, yes, we can do it and we're figuring 
out how to and we'll do it shortly. That has not yet been done. 
So you still have voter rolls which are highly suspect.
    Finally, you've heard mention of the code of conduct, so I 
won't go into that. But it basically establishes serious curbs 
on public statements, press statements and what the parties can 
say.
    Let me just note as well that as one looks down the road 
what is needed: full restoration of the constitution, full 
restoration of independent judiciary, voiding the emergency 
period of press prohibition, press ordinances--by the way, they 
provide for criminal penalties, not simply civil penalties. Up 
to 3 years in jail, in addition to a $200,000 fine and loss of 
television licenses. And that's for anyone who publicly 
criticizes Musharraf, the military, the emergency, the 
emergency rule or foreign affairs.
    Establish a neutral electoral commission and a neutral 
caretaker government and consult with the parties on all of the 
issues relative to the elections and release from house arrest 
judges and their lawyers and the others detained for engaging 
in democratic protests.
    The United States and Western allies must recognize that 
fair and free elections are the best option for a secular, 
moderate parliamentary majority, a unified country against 
extremists, Jihadi organizations, the Taliban and al Qaeda. A 
rigged election will produce the worst of all possible worlds. 
The election will not be credible, the parliament will not be 
credible, and the parliament will be controlled by a Musharraf-
linked majority of religious parties who themselves have links 
to the Taliban, and the country will be fundamentally and 
sharply divided.
    Thank you.
    Mr. Tierney. Thank you, Mr. Schneider.
    [The prepared statement of Mr. Schneider follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, all of you. We went a little bit 
over the 5-minute line, as we thought we would, but I think it 
was worth listening to what you all had to say, and I 
appreciate it.
    The very last thing that Mr. Schneider said--saving the 
best for last, I think, is really the crux of the matter, isn't 
it--that the United States, the Western allies have to 
recognize that free and fair elections are the best option for 
a secular and moderate parliamentary majority in a unified 
country against extremist jihadi organizations, the Taliban and 
al Qaeda. Do all of the panel agree with that statement, that 
is really the best option here?
    Mr. Daschle. Well, Mr. Chairman, I certainly do. I think 
Mr. Schneider said it very well, and I'm concerned--and I will 
say that in answer to your questions, I'll speak for myself and 
not for NDI. But I'm concerned, as he noted, that there has 
been far too much silence with regard to the U.S. position on 
many of these fundamental questions in Pakistan today. But your 
question is appropriate, and I would answer in the affirmative.
    Mr. Tierney. Mr. Garrett.
    Mr. Garrett. Yes, sir, I agree. I think that really our 
future policies should be determined in large part by whether 
or not these elections are conducted in any type of a rigged or 
free and fair manner.
    Mr. Tierney. When I look at your polls, Mr. Garrett, and I 
see the number of people responding to this declaration and 
all, I'm hard pressed to think how without legitimacy--I mean, 
if there aren't free and fair elections and if somebody isn't 
given a legitimate mandate, how they are going to marshal all 
of the people in their country to help us in other countries 
push back against terrorists and al Qaeda? You're going to have 
a continuation, I would think, of what we see now as sort of 
the government fighting those secular forces, moderate forces, 
lawyers, judges and everything, just to stay in power, as 
opposed to focusing on these external and some internal 
problems. Am I right?
    Mr. Garrett. I would agree.
    Mr. Tierney. So, following that, Mr. Garrett, I have an 
issue with you. Are you at all concerned that your IRI's 
mission is going to be seen as some sort of a validation of 
what might very likely be illegitimate elections? And how are 
you guarding against being put in that position?
    Mr. Garrett. It is difficult to say what the final report 
that we'd produce 45 days after the election is going to say at 
this time. However our pre-election statement which we have 
issued publicly--it is on our Web site--does say that we see 
this as a very troubled election, pre-election environment, 
flawed.
    As I mentioned in my statement, I believe if the political 
parties of Pakistan had decided not to contest--and they are 
saying that they're contesting this knowing it is going to be 
highly flawed. If it weren't for them, we wouldn't be there. 
But we do feel like we need to stand with the political parties 
of Pakistan as they do make that courageous stand themselves 
for democracy and elections.
    Mr. Tierney. I would ask just a series of questions; and, 
Mr. Garrett, if you feel uncomfortable answering them because 
you have a report coming out afterwards, then just defer. But I 
would like the Senator and Mr. Schneider to answer.
    I want to talk about what are the standards that have to be 
met for free and fair if the judges aren't reinstated. Have 
they failed to meet the standard?
    Mr. Daschle. I don't see how you can meet the standard 
without a restoration of the rule of law. And the rule of law 
cannot be reinstated without the restoration of the judges. So 
I think it is pretty fundamental.
    Mr. Tierney. Do you agree, Mr. Schneider.
    Mr. Schneider. Absolutely.
    Mr. Tierney. Do you want to defer, Mr. Garrett, or make a 
comment.
    If you don't reinstate to the media the ability to report 
on election occurrences, including criticizing the President 
and other authorities on that, how can you have a free and fair 
election? Would that failure to reinstate their ability to do 
that, to not make them subject to a $200,000 fine, loss of a 
license and possible imprisonment for reporting a critical 
aspect, if that doesn't occur between now and January 8th, how 
can we infer that there are free and fair elections? Is that a 
fair statement?
    Mr. Daschle. I think that is a fair statement, Mr. 
Chairman.
    Mr. Tierney. Mr. Schneider.
    Mr. Schneider. Absolutely.
    Mr. Tierney. If we don't release from prison people like 
Aitzaz Ahsan, the president of the bar association, the senator 
of the PPP, a known democracy proponent and others that are 
imprisoned over there, how can we determine if it is a free and 
fair election? Am I right?
    Mr. Daschle. That's exactly right.
    Mr. Tierney. The voter polls, Senator Daschle, you made 
mention of that in your report and Mr. Schneider mentioned it 
again. Twenty-five million people all of a sudden mysteriously 
appear and get thrown on there. If that isn't corrected by 
allowing the parties to go through and scrutinize and make 
comments about who perhaps ought not to be on for whatever 
infirmity or ought to be on because they're missing, how can 
that be termed a free and fair election? Am I correct?
    Mr. Daschle. Precisely.
    Mr. Tierney. The problem that I'm seeing here is we have 3 
weeks to go, some very, very serious impediments on that; and 
it is almost--and I didn't want to put Mr. Garrett in this 
position because he is going to put a report out. How in the 
world do you even think that there can possibly be free and 
fair elections unless President Musharraf has a sudden turn of 
heart here and within the next couple of days changes all these 
things? And I think it would be arguably possible to do if you 
did things today or tomorrow, but anytime beyond that you just 
run out of time and you don't have it.
    So I think the next question is, how does the United States 
react? How are we to react if all of these things don't get 
changed so that the elections are put on a footpath toward free 
and fair elections?
    Mr. Daschle. Mr. Chairman, again speaking for myself, I 
would say that the United States needs to be far more 
assertive, far more vocal, far more aggressive in stating our 
position, as Mr. Schneider noted and we've noted this morning. 
The silence is a message, and that silence cannot go unnoted.
    We just passed the omnibus, as no one knows better than the 
chairman and Mr. Yarmuth. But that conditionality in the 
omnibus is a beginning, but it is only a beginning. I think it 
is a very mellow statement with regard to what it is that this 
government needs to do, but you have to start somewhere. I 
would hope that we could build on that in the future, and I 
would hope that we could be a lot more assertive with regard to 
the conditionality of assistance.
    But, most importantly, in the next 3 weeks--and we won't 
be--you won't be in session during the next 3 weeks--I think it 
is very critical that the State Department step up to the plate 
and voice these concerns with a lot more vigor than I've seen 
so far.
    Mr. Tierney. I have to agree with you.
    My problem is that, other than ambassador Patterson, who 
has done, arguably, a good job on at least some of these 
aspects of being outspoken, I'm really concerned about Mr. 
Negroponte and Mr. Boucher and their statements. To say that it 
hasn't crossed any red line to me is absurd. They crossed when 
they declared the state of emergency and all the other things 
that followed from it. But then for Richard Boucher to indicate 
that it is a bump in the road--if it happened in this country, 
I don't think we'd look at it as a bump in the road. So I don't 
know what hope we can hold out for this administration really 
doing that.
    For the record, I'll make note that the Senator referenced 
action that was taken on spending bills, appropriation bills 
last night where the House and the Senate decided to put some 
constraints on the financial aid that the United States was 
giving to Pakistan, a significant amount of money. $50 million 
was held aside until the Secretary of State can make certain 
representations about corrections of the conditions we 
mentioned here today, the judges and others being put out of 
jail, reinstated to the bench, the media being given back the 
license that it had to report and so on. So, also, money being 
put more toward development and education and other things, as 
opposed to just indiscriminate money to the Musharraf regime to 
do what they want to do.
    And also directing some money away from money that had been 
spent militarily for things like F-16s and focusing it more on 
the battle against terrorism and the Taliban. Although the 
administration's surprising remark to that was they didn't 
quite know how that was going to happen because the F-16s were 
so important to Musharraf and the military. Notwithstanding the 
fact that F-16s, to my knowledge, haven't been used to fight 
terrorism and the Taliban and al Qaeda in that region of the 
world, nor do they need submarines or some of the other things 
it was being spent on.
    So those are the things that were referenced there.
    I'm going to have Mr. Yarmuth ask some questions. I have a 
number of questions I'd like to get back to, but I do want to 
let the other panelists--and I welcome Mr. Van Hollen who is 
joining us as well. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman. I appreciate the 
testimony of the witnesses.
    I want to give the President the benefit of the doubt for a 
second, and I don't usually do that, but I'll do it for the 
time being. Is he in essentially--are we in a no-win situation 
in that the likelihood we're going to have to deal with 
President Musharraf in some way in terms of our fight against 
radical Islam versus our desire to have a pure democracy, an 
American-style democracy, is he--how much of a thin line is he 
treading here in terms of the real politic of the situation?
    Mr. Schneider. I think really that is a fundamental 
question. I think the mistake is to assume that the Pakistan 
military is solely made up of President Musharraf. It is not. 
The Pakistan military has for its own reasons--if it is working 
with the civilian democrat, the elected government, efforts to 
try and stop the Islamic Jihadi forces which have been carrying 
out, as you know, suicide bombings and other attacks--the issue 
is that, politically, President Musharraf has linked himself to 
religious parties which are linked to some of the extremists, 
including Taliban, in order to gain a majority he hopes in the 
parliament. That is the problem. All the pressure is on him in 
terms of his own political interests, are to go soft on the 
terrorists.
    On the other hand, both Benazir Bhutto, the PPP and the PML 
and Nawaz Sharif, their instinct and their desire is to have a 
secular, moderate majority; and they will be even more 
concerned about putting restrictions on the religious 
extremists. So, in a sense, it is a win-win for us to press for 
a fair and free democratic election which would produce, as 
we've heard from the polling numbers, a moderate majority. And 
I believe that if worst--if the United States is taking that 
position, along with its allies, the military will understand 
that if they take the position of supporting Musharraf against 
the majority of the Pakistan population again and put at risk 
their relationship in terms of aid with the United States and 
others, that is not in their institutional interests. And at 
some point--and I would suspect it would be sooner rather than 
later--they'll press President Musharraf to either change 
significantly or remove himself.
    And I should say, by the way, that at this point it seems 
to me there is something that the State Department can do even 
at this 12th hour and that is to specify what are those 
conditions that are required to provide an opportunity for a 
relatively credible election on January 8th. Present those--and 
I mean this. They are not hidden. As you've heard from all of 
us, we all generally agree on what they are. Present those 
privately to President Musharraf and to the leadership in 
Pakistan. And if within a number of days that they have not 
begun to move, then publicly say these are the things which 
are--that publicly that we've asked because we think it is 
crucial to a fair and free election.
    Because, relatively speaking, the short time period--if the 
people of Pakistan see that the United States is complicit with 
the steps that rule out any possibility of a democratic 
election, the future relationship with the United States is 
going to be, unfortunately, far worse than it is today.
    Mr. Daschle. I would only add that if we learned anything 
from history it is that personality driven foreign policy will 
ultimately lead to a disaster within any country where it is 
practiced. Personality driven policies in Iran, in the 
Philippines and in many other countries today have complicated, 
not simplified, our challenges in the years to follow. We ought 
to learn those lessons here.
    The people of Pakistan generally are very supportive of the 
people of the United States. But over and over again when I was 
there they asked the question, where is your government? Why 
aren't they speaking out? Why is it that they seem to be 
supporting Musharraf against us? And I think we have to make it 
clear we're with the people of Pakistan, not with the Musharraf 
government.
    Mr. Yarmuth. That was actually going to be one of my 
followup questions, is how aware are the Pakistani people of 
what this government is doing, what our government is doing? 
Apparently, they're very aware.
    Mr. Daschle. They are very aware.
    Mr. Yarmuth. Mr. Chairman, I'm lost without the clock. I 
don't know when my time is up.
    In terms of the ramifications for the international 
situation--again, our war on terror and so forth--are we--is 
the failure of a free and fair election in a few weeks, that we 
have the status quo--in other words, do we have a downside from 
where we are now? Can it make it worse? Or is there only an 
upside?
    Mr. Schneider. Let me give you just one example.
    Already, as you know, President Musharraf's party, the PML-
Q, has indicated that it is going to align itself with the JUIF 
during the election campaign. That is the extreme religious 
right party that has been seen to be linked with Taliban. In 
other words, to create their majority, they're going to link 
themselves in the parliamentary elections and then in the 
parliament with that party.
    That means that the pressures to go after the Taliban 
particularly--remember, the Taliban military and political 
headquarters, according to U.S. military sources testifying 
before the Congress, are in and around Quetta and Peshawar. 
These are cities. These are not mountain--isolated mountain 
regions. Any effort to go after them is going to be undermined 
by this process of an unfair election because it is going to 
result in a majority of the religious right linked to parties 
which have their own ties to the Taliban.
    Mr. Yarmuth. I'll yield.
    Mr. Tierney. I just want to add one thing, and that is 
we've seen this before. If we don't have free and fair 
elections now, when the prospects are that if they were held in 
that manner that people that were secular probably, at least 
were moderate and certainly and shared interests with others 
would be not likely to win. You have a fraudulent election or 
fundamentally flawed election and one or two terms down the 
road here you could end up with a team in there that you don't 
even want to see. That's why it is so disturbing to have this 
administration sitting on the sidelines and not speaking out.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Tierney; and thank you for 
holding this series of hearings on Pakistan. I thank all of our 
panelists, witnesses here today.
    I just want to start by looking at the context by which we 
find ourselves in right now in Pakistan. I think we obviously 
need to look forward and anticipate what is going to happen 
after these elections, but it is also important to remind 
ourselves how we got here. And we did get here in large part 
because the U.S. Government, under the Bush administration, did 
not take action nearly early enough to put--keep pressure on 
Pakistan to move in the direction of greater democratization 
and essentially bought into Musharraf's argument that he was 
the only guy in Pakistan that was willing to stand up to the 
Taliban and be able to fight al Qaeda. When in fact, as you 
pointed out, Mr. Schneider, his ability to stay in power was in 
part due to the fact that he had at least the tacit support of 
some of the extreme religious groups within Pakistan and that 
they provided him his margin, in fact, for the majority. And if 
you looked at sort of the secular opposition, that they in fact 
represented a much greater threat, so to speak, to the Taliban 
and the extremists.
    So what our policy did was reinforce Musharraf; and we sort 
of saw this in stark terms when Musharraf recently, instead of 
keeping his guns trained on al Qaeda and the extremists, 
actually turned against the lawyers and those fighting for 
democracy in the streets. So we sort of saw in very vivid form 
when push came to shove where he saw some of the threats within 
Pakistan coming from.
    So I do think we've got a lot of work to do dealing with 
the Pakistani public in letting people know that we're on the 
side of democracy, let the chips fall where they may. And 
clearly his decision to remove the chief judge had everything 
to do with the fact that they were about to rule that he could 
no longer serve, he couldn't serve as President because of the 
constitutional limitations.
    So given that we're in that situation and we're going 
forward now with the elections, if the elections are not 
perceived to be fair and given what you have all said with 
regard to the current judges and the election, you know, 
overseers who were all supporters of Musharraf at this point, 
if it is not perceived to be fair, where does that leave the 
United States and what should we both be doing right now?
    You've answered some of that. But looking to the future, 
what kind of scenarios should we anticipate and what kind of 
measure should be willing to take if we judge--we, the U.S. 
Government, judge that the outcome was not fair?
    Mr. Daschle. I'd say the three things that we ought to do.
    First, as we've all said this morning, I think the most 
important thing in the immediate 3 weeks is to put as much 
pressure as we can verbally and in other ways on the government 
to do the right thing, to make them as free and fair as they 
can, given the limited time available to us.
    Once the election has been held, I think it is important 
that we work with political leadership within the country, do 
as much as possible to ensure that, whatever the results of the 
election, we work with all interested parties to enhance the 
institutions of government themselves and not look at that 
election as the last word but only really the beginning of an 
ongoing effort to try to put Pakistan on the right path. I 
think that is critical.
    And then, third, I think it is important for us to involve 
the international community as well. This shouldn't just be a 
bilateral experience. It is important for us to involve others 
as well in the region and around the world and add to that 
pressure on the Musharraf government and those responsible for 
making these decisions.
    But that all has to be done both in the short term and in 
the longer term in a concerted way, And we can't afford to wait 
a day. It has to start now.
    Mr. Schneider. I would just add to that really one thing, I 
think; and that is that, instead of the conditionality applying 
softly to 50 out of the 300, I think you should apply it to all 
300 million. I think that anything that we provide thereafter 
should be clearly performance based in relation to going after 
Taliban fully, not in a half-way manner and that it should be 
based clearly on evidence that they have, in fact, taken 
significant steps to go after the Taliban leadership, the core 
leadership throughout the country and as well as al Qaeda. I 
think that is a minimum.
    But, clearly, we should also be looking for ways to 
strengthen our relationship with the rest of the political--not 
just the political parties but civil society as well, the human 
rights groups, many of which have--their leaders have been 
detained, the women's organizations. All of those that 
represent civil society, we should be increasing our support 
for them. This is not going to remain--even if this outcome of 
these elections is, as we believe, not going to be fair and 
free, that is not going to be the future of Pakistan.
    Mr. Garrett. If I could just add to that. We feel very 
strongly at IRI that we don't need to fear the outcome of any 
free and fair elections in the country, but we do need to be 
very concerned in the United States about what is to come if it 
is seen as an American validation of a rigged election.
    As my fellow witnesses have said, I think an investment 
needs to be made, a long-term investment, in Pakistani civil 
society. We are seeing the students now stepping up for, 
really, one of the first times in some years--the lawyers and 
the political parties--but an investment needs to be made in 
developing those groups.
    Mr. Van Hollen. Just to followup on that, Mr. Garrett, in 
terms of the tools that are at your disposal in terms of the 
election monitoring, what kind of cooperation have you gotten? 
What resources do you have at your disposal? At what point 
would you be in a position to give an assessment, again, prior 
to the election, as to whether or not you thought you had the 
resources and tools available to actually make a fair judgment? 
Because it gets to the point you just raised. We do not want to 
be in a position here of sort of certifying the fairness of an 
election or in suggesting we think it was fair if, in fact, we 
are not in a position to do so, and many in the country see it 
as unfair.
    So what resources are at your disposal? At what point do 
you think you would be able to say that the election monitoring 
that is going to be put in place will be adequate to make a 
determination on the fairness of the election?
    Mr. Garrett. Well, the resources to date that we have been 
operating on were provided by the National Endowment for 
Democracy, and they have been our only funding source in the 
country, until very recently, for this election when we did 
receive USAID money and State Department money to conduct the 
election observation itself. A 65-person observation delegation 
is fairly large. However, in a nation of 160 million people and 
tens of thousands of polling stations, you can see that will 
not go very far. That is why I think it is important that the 
work of our sister organization--the National Democratic 
Institute--trains the political parties to try to get as many 
of their own observers there. That has been very, very 
important to this.
    There are Pakistani groups that are also domestic 
observers. As I understand it, as of today, they have still not 
been given credentials by the government, allowing them, 
although they are a very well-established NGO, to go out and to 
try to cover some of these polling stations on election day and 
to record their findings. There is one more thing that could be 
done, and that is to encourage the Government of Pakistan to 
allow its own domestic groups to participate in the election as 
monitors.
    As for the resources for the future, as I say, I think we 
need to try to commit more to these very sectors and to try to 
do that, possibly, through our USAID programs as opposed to 
simply through the Pakistani Government.
    Mr. Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Following on that thought, there are a number 
of areas of that country that are deemed to be not particularly 
safe by the Pakistani Government itself, and by our own 
government on that.
    Are you going to be able to get into those areas with the 
IRI to monitor the situations there--into Balochistan, Peshawar 
and up in the FATA areas?
    Mr. Garrett. During the preelection assessment, we were 
able to get into Balochistan. We did not go to the frontier. I 
believe, a few weeks before, NDI was able to visit Peshawar 
during their preelection assessment. We do not really know as 
of now what is going to be happening on election day. There are 
certainly parts of the country that, I think, are just a ``no 
go'' for us, but for the most part I think we are going to see 
a fairly good distribution in all four provinces of our 
international observer team.
    Mr. Tierney. Mr. Schneider, tell us a little bit about the 
alleged role of the intelligence services and their impact and 
intimidation, or at least alleged intimidation. Also, the local 
mayors and local authorities, what is their role in the 
election? What are their concerns around that?
    Mr. Schneider. There are three things it seems to me that 
are of major concern.
    You have already had the parties file complaints with the 
Election Commission about the intelligence services' having 
threatened and, in some cases, detained their party leaders at 
the local level. You have had the decision by the newly named 
high court judges in several of the provinces to move hundreds 
of local district judges around. Remember, I mentioned that 
they are going to be, essentially, the electoral voting 
managers on election day. Well, they have moved them out of 
their districts and have sent them elsewhere. So you have a 
real concern about those kinds of administrative actions at the 
local level.
    The state governments have the responsibility for the local 
administration. Again, there has been evidence--and you have 
some of it on your screen--of the use of government resources 
and of government security forces campaigning for Musharraf. So 
all of these things are major concerns that the parties have. 
Up to this point, the Electoral Commission has not responded to 
any of these complaints, so it is a major concern.
    I will also note that with FATA right now, the political 
parties, the moderate political parties, are not able to 
operate there. In the past, in fact, the PPP won in FATA in the 
distant past, but now they cannot operate there, and the area 
is essentially controlled by the religious parties.
    Mr. Tierney. It is disturbing on that.
    I guess, Mr. Garrett--again, not wanting to be unfair to 
you, but I keep coming back to this--can you conceive at all of 
an outcome of this where you deem these elections to be free 
and fair if that judiciary continues to be stacked the way it 
is? Is that even a prospect? Would you take one of the other 
criteria, the fact that the media is still restricted and that 
they suffer the possibility of a prison sentence of up to 3 
years under this code of conduct if they criticize the 
president or the military? If that does not change between now 
and then, can you even fathom saying that those elections were 
free and fair?
    I think we all know it is not about how transparent the 
boxes are on the election day. You can monitor that all day 
long, but if none of this in the lead-up changes--the voter 
polls do not change, the ability of the press to report, the 
parties to participate, people to get out of jail, the 
judiciary to not be stacked--is it really even fair to think 
that you might come up with any kind of a stamp of approval on 
this or just a report about how bad it went?
    Mr. Garrett. Let me just say that we had our preelection 
assessment team in the country the day the emergency was 
declared. So, as we became aware of the emergency's being 
declared, it was one by one that the television stations were 
disappearing. You were watching one, and it was saying, ``There 
are troops arriving in the capital. The Supreme Court has been 
surrounded.'' Then it went off the air. You would switch to the 
next station, and it would be on for a while, reporting, and it 
would go, so forth and so on. However, during that entire 
period up to today, there was still print media that was 
allowed, I think, to operate unfettered. It was the electronic 
media that was singled out. It was not the nation's substantial 
print media.
    If you look at our polling, it says that in a free and fair 
election, over 50 percent of the seats would very likely go to 
a coalition of opposition parties. There are places where these 
political parties have a very solid basis of support. So I see 
these sorts of things, and I think that once again we cannot 
really prejudge, because we do not know what might change in 
the next few weeks.
    Mr. Tierney. Well, the one thing that has changed is how 
the print media is subject to the code of conduct as well.
    Mr. Garrett. That is true. But as recently as this past 
week when I was there, they were printing their cartoons 
against the president. They were doing editorials that were 
very well written, explaining what were the root issues with 
the emergency.
    I would just say that it is going to be very difficult--I 
think I said that in my statement earlier--it is going to be 
very difficult to imagine how this election is going to emerge 
with any type of a positive reference given the things that we 
are already seeing going into it. It will be very difficult.
    Mr. Tierney. All three of you probably have far more 
experience on previous elections than the panel up here does. 
But my understanding of the electioneering process that goes on 
out there is that parties take to the streets, that they have 
large rallies, that they motivate tens of thousands of people 
on that. There are serious constraints on that as I understand 
it.
    How does that affect the ability of any one party to really 
go through with their historically understood to be the way of 
conducting an election? What impact is that going to have?
    Senator Daschle.
    Mr. Daschle. Well, Mr. Chairman, even by Pakistani 
standards, you are not going to have anything close to that 
resembling a free and fair election. I mean it starts with the 
ISI and Mr. Schneider's description of the circumstances 
involving the pervasiveness of ISI involvement at the local 
level now with regard to the elections. You have the 
incompetence and the intransigence of the Election Commission. 
You have serious problems with regard to the freedom of press. 
You have the inability on the part of parties to organize 
themselves and have the public demonstrations of support for 
candidates that you have just described. You have a Supreme 
Court that is now completely violated and that is not in 
standing within the country. So, as I say, even by past 
standards in Pakistan, the circumstances today are deplorable, 
and I do not see how you begin to change that.
    Having said that, I think the parties have come to the 
conclusion of what is the alternative. What do you do in a 
situation like this when the alternative, probably, is 
Musharraf's dictatorship for an indefinite period of time and 
no opportunity for them to voice themselves and to be 
participants in the political process even under this corrupted 
basis? So I think they probably made the right decision, but we 
all like to know, going in, that this is really a joke in terms 
of the capacity to produce any real results.
    Mr. Schneider. Could I, Mr. Chairman?
    On the question of the press, I have just a couple of 
things.
    Mr. Tierney. Sure.
    Mr. Schneider. In the last couple of days, the Pakistan 
media regulatory authority has actually sent new letters to the 
owners of the private television stations, and they have 
basically told them that they are being watched and that they 
cannot do live coverage, live programs that deal with political 
issues in ways which, in their view, violate the code of 
conduct in terms of ridiculing or in any other way criticizing 
the president and the military, etc.
    When we talk about intelligence agencies, they have also 
made it known to reporters that their actions are as clearly 
questionable with respect to some of the things they have 
written as it relates to individuals like President Musharraf. 
You have to remember that during the emergency period, then-
General Musharraf issued ordinances which increased the 
restrictions on both the electronic media and on the print 
media.
    I was just looking at Ordinance No. 14, for example, on the 
print media. It says that any material, printed or graphic, 
that defames or ridicules members of the armed forces, etc., 
are barred, and they are potentially liable for 3 years in jail 
and for major fines.
    So the kinds of restrictions that now exist are far greater 
than anything in the past. Obviously, this has an enormous 
chilling effect on all of the media.
    Mr. Tierney. When we look at the unfortunate 
circumstances--I think, Mr. Garrett, you put it out in your 
testimony pretty well. We were looking at it, and we were 
thinking there was a really good system or that there were 
parties that would have a platform and that would stand for 
principles and policies. Historically, it has been very 
personality-driven, and I do not think that is going to change 
overnight.
    So, given the fact that it has now prohibited Nawaz Sharif 
from even participating, what does that do to at least one of 
those major parties and their prospects in this election?
    Mr. Daschle. I think it makes it almost impossible for the 
full participation of the parties of consequence to have the 
ability to participate openly and freely. I think once you have 
eliminated one of the major opponents in the political process, 
I mean, by the very nature of that act, you are not going to 
get where you need to go, aside from all of the other things we 
have already talked about.
    Mr. Tierney. Thank you.
    Mr. Schneider, you made mention in your testimony that 7 
out of the 11 original judges on the highest court voted, 
before they were displaced, that the action of President 
Musharraf, or General Musharraf at that time, actually was 
unconstitutional.
    Mr. Schneider. Right.
    Mr. Tierney. What is the effect of that order now?
    If that were put in place before they were actually removed 
or whatever, is it still valid? Has it been invalidated by his 
subsequent actions? Is it lingering out there?
    Mr. Schneider. It is very difficult to say because, as I 
say, that action took place before they were removed from their 
position. So the argument could be made that still stands. 
There are some legal voices of impact who are going to say that 
is the case; that this was an unconstitutional act, that it was 
found unconstitutional by the court and that court ruling still 
stands. Obviously, President Musharraf subsequently has said 
that no order by any court can void what he has done during the 
emergency law period. But the entire order establishing the 
provisional constitutional order was declared unconstitutional 
by the court before it left office, before they were thrown 
out.
    So I think at some point in time, you are going to go back. 
I do think that, at some point, you will have a democratic 
government. I do think at some point they will find that the 
original orders by General Musharraf were unconstitutional and 
invalid and that he could not, essentially, bar the court from 
reviewing his actions.
    Mr. Tierney. One of the prospects that elections held is 
that the PPP takes some, that the PML-N takes some, and that, 
of course, the PML-Q takes some.
    Are we looking at deadlock? Are we looking at a 
constitutional crisis? Is there any way that we can estimate at 
this time?
    Mr. Schneider. Not at all.
    Traditionally in parliamentary democracies, you have 
coalitions that are built after the elections because you 
rarely have an overwhelming majority. So, in this case, what 
seems likely is that you both will have the PPP and the PML-N, 
plus some of the individual regional parties, moderate regional 
parties, joining in an effective majority.
    As I say, if the polling that the IRI has done is reflected 
in the voting and those votes are counted, then I think you 
will have a coalition that will be put together and that will 
choose its prime minister. At that point, I suspect that 
majority in the Parliament will challenge the actions that 
President Musharraf has taken and, in fact, may well challenge 
his reelection.
    Mr. Daschle. I am actually somewhat encouraged for the 
reasons you have just heard, in the longer term, Mr. Chairman.
    I think the parties and the people of Pakistan are 
increasingly determined to deal with these challenges in a very 
forceful and effective way. It is going to take some time. I do 
not think they are probably going to be able to do it in the 
next 3 weeks. After the election and with the continued effort 
to organize and to form the coalitions that Mr. Schneider just 
addressed, in the longer term and with the kind of pressure 
internally and from the external source, if it can be done as 
well as we have discussed today, especially by the United 
States, I think we have reason to be optimistic about the 
prospects in Pakistan, ultimately.
    Mr. Tierney. I think the unfortunate consequence, however, 
is that coalition will be mindful of the fact that this U.S. 
Government did not speak up as strongly as it should have for 
the people, and it made their work harder for them. I think, 
also, that all of that focus on resolving those internal 
problems will probably detract from efforts that could be used 
to focus on the Taliban and on al Qaeda and on other 
situations. So it is unfortunate in that regard.
    Do either of my colleagues have any more questions?
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    It seems like we have already decided here that in terms of 
our standards, there is no chance of a fair and free election 
there. And that the administration does not seem to want to at 
least set the stage by saying that is the case.
    I am more concerned in this question as to what measures 
the Pakistani people themselves will judge this election by. I 
mean, is it going to be a repudiation of the Musharraf rule? 
With all due respect, it does not sound like it is going to be 
whether Mr. Garrett's organization says it was a free and fair 
election. The process is probably less significant than the 
outcome, but I would like your answer as to that. How are they 
going to judge whether it was a fair election or not?
    Mr. Daschle. I would just say that the IRI poll was really 
helpful in creating sort of a picture of where the people of 
Pakistan are. I do not think anyone challenges the results of 
that poll. In fact, it has been cited all through the country 
and in the international community. I think the degree to which 
people, in spite of all these problems, will find some 
confidence that the elections are at least accurate is whether 
they conform at all to the polling data that we know to be 
fairly accurate. I mean, if they do and if the results of the 
election reflect that degree of support for the political 
opposition that we know to exist, I think we can salvage a lot 
in spite of the difficulties.
    Mr. Schneider. I will just add one other thing.
    I do believe that the Pakistani press is not cowed by the 
restrictions that have been placed on them, and I have no doubt 
at all that they will be monitoring the voting. As to the 
degree that they also are reporting that voters are not 
permitted to vote who are on the rolls, and that others cannot 
find where they can vote, etc., they will be reporting that. If 
there is a general judgment that there has been an unfair 
process at that time, along with the view that the outcome does 
not conform to anything that one would expect given the 
polling, then you will see a fundamental rejection.
    I just want to note here that this is not us. This is one 
of the leading newspapers in Pakistan, the newspaper DAWN. It 
says that Pakistan is recognized as a genuine democracy and all 
that goes with it--an independent judiciary, the equality of 
all before the law and a media that is truly free. The country 
can ill afford to go through another flawed exercise, which 
would be catastrophic.
    The people who are the public opinion leaders in Pakistan, 
I think, will set the standards. They are not our standards. 
They are their standards. They do believe in democracy. I think 
that they will see what has occurred up to this point, and they 
will see the outcome on election day, and they will make their 
own judgments.
    Mr. Tierney. Mr. Van Hollen.
    Mr. Van Hollen. Yes.
    Just briefly, again, as we discussed earlier on, I think 
that the reason the Bush administration has been so slow to 
push Musharraf and others in Pakistan more quickly toward 
democratization has been this assertion made by Musharraf, and 
that was essentially picked up by the Bush administration, that 
he is the only guy standing in the way between the radical 
extremists taking over in Pakistan.
    As you pointed out, Mr. Schneider, in your testimony, if 
you look at some of the sort of bases of operation of al Qaeda, 
we are talking about places like Quetta. We are talking about 
Peshawar. We have also seen that the deal President Musharraf 
struck many months ago with the folks in the federally 
Administered Tribal Areas was, essentially, that they entered 
into a nonaggression pact, and, according to the publicly 
announced portions of the National Intelligence Estimate here, 
which as you know represent the consensus position of all 16 
U.S. intelligence agencies, that led directly to an increase in 
Taliban strength, and it increased the sort of sanctuary for al 
Qaeda-type elements.
    So I think it is very important as we go forward here that 
people in the United States understand that Musharraf is not 
the bulwark against extremism in Pakistan. To the extent that 
you do not allow the political process to be more open, in 
fact, you strengthen the extremist elements.
    So I would just like all of you to respond to: If you were 
to have the sort of secular opposition win this election and if 
we were to continue to push Musharraf to more openness and to 
more democratization in the process, how would that affect 
Pakistan's policy with respect to the Taliban and to the anti-
al-Qaeda effort? Would it hurt that effort or would it 
strengthen it or would it, essentially, represent----
    Mr. Schneider. I think it would definitely strengthen it. 
Simply, as I said earlier, there would be no countervailing 
political pressures to try and go soft on the Taliban because 
they are linked to the religious parties in the case of 
Musharraf, that I support. So it seems to me that you are 
likely to see a much stronger, unified civilian leadership in 
the Parliament, pressing for the military to take actions 
against the Taliban and al Qaeda. Both parties--both the PPP 
and the PML-N--have stated in a coalition statement that they 
would go after al Qaeda and the Taliban terrorists.
    Mr. Garrett. I agree. I think it would strengthen this 
struggle that their country and our country are in.
    Mr. Daschle. I think a lot of the government's actions, the 
repressive actions, have emboldened the extremist elements 
within the country and have given them all the more empowerment 
in these regions outside of the larger cities. I cannot think 
of a better anecdote to that than to empower the opposition and 
to give them an opportunity to work these areas and to say, 
``We are going to take back our government and, in your name 
and in the name of people across the country, restore the 
democracy that Pakistan is proud of.''
    Mr. Schneider. Could I just add one thing?
    Mr. Tierney. Sure.
    Mr. Schneider. Quetta is in Balochistan. One of the changes 
with a democratic government would be that--both the PPP and 
the PML-N have stated that they would end the direct 
confrontation with the Baloch national parties in Balochistan. 
That would then provide a unified government's aiming at 
restricting the Taliban and al Qaeda in that province, which 
you do not have now.
    Mr. Tierney. Thank you.
    I would like to give each of you gentlemen an opportunity 
to make some overarching closing statement if you would care 
to.
    Senator Daschle.
    Mr. Daschle. First of all, I want to reiterate how pleased 
I am that you are holding this hearing because I think it sends 
the message that there are people within this government who 
are very deeply concerned about circumstances in Pakistan, and 
I think that is exactly the message we need to send to the 
people there today.
    I think we need to keep the pressure on, not only from the 
administration but from the Congress, and you are doing that, 
in part, with this hearing. I think we ought to go back and 
look at the conditionality of aid in the future, and we should 
not wait for a long period of time for us to revisit the 
question as to how far we should go with regard to 
conditionality.
    Third, I think it is important for us to watch this very 
carefully and to respond as quickly as we can once the 
elections have been held.
    Mr. Tierney. Thank you.
    Mr. Garrett.
    Mr. Garrett. Let me also thank you for letting me appear 
before you today.
    I think the people of Pakistan are watching what is done 
here, what is done in the United States. I just wanted to take 
that opportunity to say that it has been our consistency in our 
work with the people there that they desire democracy. I think 
they will see this as an important contribution toward being 
placed back on the road map to democracy.
    So thank you.
    Mr. Tierney. Mr. Schneider.
    Mr. Schneider. I agree with everything said.
    Again, Mr. Chairman, thank you for holding the hearing. I 
hope that you will consider holding a hearing early in January 
on the same issue, on what did the elections show and on where 
do we go from here.
    I would just simply note something. Today, in Islamabad and 
in Pakistan, the newspapers are giving a great deal of 
attention to what the Congress did in terms of conditionality. 
So they are watching what the United States is doing, and it is 
crucial that the message from the United States--from both 
parties and from the administration as well as the Congress--be 
that the United States stands for democracy and that the United 
States believes that democracy is in the interest of Pakistan 
and in the interest of the United States.
    Mr. Tierney. Well, thank you. You will be comforted to know 
that we do intend to have a hearing on the financial aspect of 
it, certainly, in January. We can certainly do a recapture of 
what happened with the elections as well. We think it is 
important, and we have a good bipartisan group on this panel 
and elsewhere that believes strongly that Congress has to speak 
up, given the silence of the administration. We have to try to 
get the administration to speak up as well.
    I want to just publicly thank each of the three of you 
gentlemen. I am not sure the public is aware of the sacrifices 
you make in your personal lives with traveling, making the 
observations, and then in coming back and sharing them. It is 
important for us to have people willing to do that, to make 
observations on the ground and come back.
    Mr. Garrett, in particular. I will note that you just got 
home this past weekend, and right after Christmas you are going 
back again and are staying through the election. So thank you 
for your service.
    Thank you, Senator and Mr. Schneider, as well.
    Your testimony here today has been incredibly helpful, and 
it helps us build a record, and it points us in a direction of 
where we go from here. We thank you for all of your assistance 
on that and for your public service. We look forward to the 
hearings in January as well.
    I thank my colleagues for their input as well.
    This meeting is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
